LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

January 22, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-759: MILO H. SEGNER, JR. V. CIANNA RESOURCES INCORPORATED
Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioner, on January 22,
2020, I caused service to be made pursuant to Rule 29 on the following counsel for the
Respondent:
RESPONDENT:
Matthew Wayne Brockman
Hartzog Conger Cason
201 Robert S. Kerr Avenue, Suite 1600
Oklahoma City, OK 73102
405-235-7000
mbrockman@hartzoglaw.com
This service was effected by depositing three copies of the Petitioner's Reply
Brief in an official “first class mail” receptacle of the United States Post Office as well
as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 22nd day of January 2020.

